IN THE SUPREME COURT OF THE UNITED STATES

MELENDEZ, OSCAR ERNESTO
Petitioner
No: 19-0415

vs.
KEVIN K. MCALEENAN, ACTING SEC. OF HOMELAND
SECURITY, ET AL.
WAIVER

The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
October 28, 2019
cc:
See Attached List

RAED GONZALEZ
GONZALEZ OLIVIERI, LLC
2200 SOUTHWEST FREEWAY
SUITE 550
HOUSTON, TX 77098
AMANDA WATERHOUSE
GOZALEZ OLIVIERI, LLC
2200 SOUTHWEST FREEWAY
SUITE 550
HOUSTON, TX 77098
ALEXANDRE AFANAS SIEV
GONZALEZ OLIVIERI, LLC
2200 SOUTHWEST FREEWAY
SUITE 550
HOUSTON, TX 77098

